<html>
<title> - MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





        MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2014

                               __________

                           Serial No. 113-112

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-246 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 4, 2014.................................     1

                               WITNESSES

Mr. Michael P. Botticelli, Deputy Director, Office of National 
  Drug Control Policy
    Oral Statement...............................................    12
    Written Statement............................................    15

                                APPENDIX

Article: ``Earl Blumenauer Wants Obama To Drop Marijuana From 
  Dangerous Drug List.''.........................................    44
Responses to questions submitted for the record to Michael 
  Boticelli......................................................    46

 
        MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA

                              ----------                              


                       Tuesday, February 4, 2014

                  House of Representatives,
             Subcommittee on Government Operations,
               Committee on Oversightand Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Turner, and Connolly.
    Also Present: Representatives Cummings, Blumenauer, and 
Cohen.
    Staff Present: Will L. Boyington, Majority Press Assistant; 
Molly Boyl, Majority Senior Counsel and Parliamentarian; Linda 
Good, Majority Chief Clerk; Mark D. Marin, Majority Director of 
Oversight; Emily Martin, Majority Counsel; Katy Rother, 
Majority Counsel; Laura L. Rush, Majority Deputy Chief Clerk; 
Jessica Seale, Majority Press Assistant; Sarah Vance, Majority 
Assistant Clerk; Jaron Bourke, Minority Director of 
Administration; Courtney Cochran, Minority Press Secretary; 
Adam Koshkin, Minority Research Assistant; and Leah Perry, 
Minority Chief Oversight Counsel.
    Mr. Mica. Good afternoon. I would like to call this 
subcommittee hearing of the Subcommittee on Government 
Operations of the Government Oversight and Reform Committee to 
order.
    Welcome, everyone. Sorry for our late start. We did have 
votes that delayed the beginning of this hearing, but we will 
go ahead and proceed.
    Let me just cite, first, the order of business. We will 
hear statements from members as they return from votes or, 
through unanimous consent, we will also include their 
statements in the record.
    We have one witness today, Mr. Michael Botticelli, from the 
Office of National Drug Control Policy, who is joining us. We 
will hear from that witness and then members will be able to 
question the witness.
    So usually the chair gets a couple extra minutes of 
introductory statements for launching the hearing, and I will 
go ahead and get started as we have other members join us. I 
see our ranking member of the full committee has joined us; 
hopefully Mr. Connolly will be here.
    I would also like to ask unanimous consent that our 
colleague from Oregon be permitted to participate. Without 
objection, so ordered. And I think we have several other 
members joining us. We will ask unanimous consent to have them 
join us too.
    Our normal procedure is we will go through the members who 
sit on the committee and then defer to you, both in opening 
statements and in our questioning. So, again, as members 
return, we will begin that process.
    Mr. Issa, the chair of the full committee, always likes us 
to have the chairs remind folks why we are here, why we do what 
we are doing as the Government Oversight and Reform Committee, 
and our mission statement, which is simple, that taxpayers sent 
us here to oversee taxpayer dollars, programs, how they are 
expended. Congress both authorizes and appropriates laws, but 
the oversight function is extremely important and it keeps us 
focused on our responsibility, making certain that programs 
work, that taxpayer dollars are wisely spent, that Washington 
and the people who represent hardworking Americans do have, 
again, accountability of our Government. So it is an important 
responsibility.
    The focus of today's hearing is really going to focus on 
where we are on some of our Federal drug laws, policy, and 
enforcement. As most of you know, there is a growing disparity 
between what our laws say at the Federal level, now our laws at 
the local and State level, complete opposites in some cases, 
and various officials from the President of the United States 
to administration officials going in different direction on the 
question of legalization of marijuana.
    As most of you also know, 20 States and the District of 
Columbia have taken steps to legalize marijuana for medical 
purposes, and in 2012, Colorado and Washington legalized 
marijuana at the State level for recreational use. The only 
problem with this is we do have conflicting Federal statutes. I 
asked the staff to pull out Federal statutes and these are 
actually the Federal statutes: Title XXI sets up a schedule and 
it classifies substances and sets really the highest level of 
narcotics that are under Federal jurisdiction and the 
responsibility of enforcement. So this is the Federal law and 
that is where we are at this point.
    What has taken place is, again, these States have taken 
actions, and localities. But, again, we have heard what the law 
is, we have seen what States are doing, and, unfortunately, 
there is chaos as it relates to where we are going and what our 
policy is as far as what is allowed, what is legalized, and now 
enforcement is going to react.
    To compound this, in our society we all look to the 
President for leadership, regardless of what party is, and the 
current President has made some statements of late. In fact, 
just a few days ago President Obama said, ``I don't think it is 
more dangerous to alcohol,'' referring to marijuana. And then 
he said, ``It is important for it to go forward because it is 
important for society not to have a situation in which a large 
portion of people have all, at one time or another, broken the 
law and only a few select people get punished.''
    That was a statement by the President of the United States 
in regard to legalization, so again you have a growing I call 
it schizophrenic approach to what is going on and where we are 
and where we may go.
    At the same time the President of the United States, our 
chief executive, is making that statement, I have an article 
from The Washington Post and the DEA operations chief of the 
Drug Enforcement Administration called legalization of 
marijuana at that State level reckless and irresponsible, 
warning that the movement to decriminalize the sale of pot in 
the United States will have severe consequences.
    Then it is also interesting to see the path that the 
Administration is also heading down. This is another article I 
just came across, and it said that the Department of Justice is 
now looking at releasing lower level drug criminals who were 
sentenced under tough laws. In fact, this article says, ``In an 
unprecedented move, the Deputy Attorney General, James C. Cole, 
asked defense lawyers on Thursday to help the Government locate 
prisoners and encourage them to apply for clemency'' drive as 
part of the Obama Administration to deal with changes again in 
law; and again we have an approach that is very fractured 
between Federal, State, and local agencies and officials, as 
you can hear from what I just said.
    The witness that we have before us is actually under the 
Office of National Drug Control Policy. It was set there some 
years ago as part of the White House to help coordinate, again, 
national policy on drug use and abuse, and in spite of the 
Federal prohibitions on marijuana, the Department of Justice 
issued a policy memorandum that explicitly declines to enforce 
Federal marijuana laws in States that have legalized it for 
recreational use. In fact, illegal marijuana dispensaries in 
Colorado and Washington are facing the realities of operating 
outside the Federal law and the Department of Justice recently 
announced they will be issuing guidance that will allow 
Federally-regulated banks to serve these illegal businesses.
    Let me say, too, today we are only going to hear from 
ONDCP, but I do plan to try to have a continuum of dialogue on 
where we are going with this, and we invited the Department of 
Justice; they declined, wanted a little bit more time. We will 
give them the time and then have them in. I would like to also 
have DEA and other agencies and then hear from some of those 
that have worked in the field of trying to help both the 
Country and our citizens and youth deal with the illegal 
narcotics question, so we will get representatives of some 
various groups.
    I might recall for the benefit of my colleagues I chaired 
the criminal justice drug policy subcommittee from, I think it 
was, 1998 to 2001 and held the very first hearings ever held in 
Congress on the subject of marijuana. Saying that, we would 
also invite, I think it is normal, some of the other folks to 
participate in the discussions of where we are going.
    So the other thing that we have to consider today is that 
about $25 billion was provided for drug control programs, that 
is $25 billion, in fiscal 2012, enforcement and a whole host of 
other activities; $10.1 billion, or about 40 percent, was 
provided for prevention and treatment programs. So we have a 
big financial stake in some of these programs and where we are 
going. In fact, 15 Federal agencies administer 76 programs 
aimed at drug abuse and prevention. Despite all that, illicit 
drug use is in fact increasing with our adolescents, and 
marijuana currently accounts for 80 percent of illicit drug use 
by our adolescents.
    I think these are probably the most recent statistics, 
usually some of these fall more than a year behind, but the 
2011, the latest statistics we have, show that adolescent use 
of marijuana was the highest it has been in eight years. First-
time users of marijuana have unfortunately increased under this 
Administration, hitting also in 2011, my most recent data, a 
10-year high. Well, maybe that is not a good term to use on 
this. Adolescent use of marijuana is associated with increased 
use of drug dependence, criminal activity, and even, again, the 
more potent marijuana that we have on the market today 
affecting the IQ and also possibly the genetic makeup of folks.
    ONDCP, and we will have a representative to speak for 
themselves and that Department today, has consistently worked 
to reduce the prevalence of marijuana use and focused on 
evidence-based prevention messaging. In 2013, the National Drug 
Control Strategy, the President's message to Congress, and he 
gives us a message with that title every year, said, ``The 
importance of prevention is becoming ever more apparent. 
Despite positive trends in other areas, we continue to see 
elevated rates of marijuana use among young people, likely 
driven by declines in perception of risk.'' That is what the 
official document that was sent to us said.
    So given the recent statements to the media in the past 
couple weeks claiming that marijuana is no more dangerous than 
alcohol, it appears that, unfortunately, the President may in 
fact be a major contributor now to some of the declines we see 
in the perception of risk and what we are going to see in the 
future.
    So, again, our hearing today will focus on our major agency 
dealing with this, the Office of National Drug Control Policy. 
We will hear statements and hopefully some idea of where we are 
going. I have a number of questions and we have had a lot of 
interest from members on both sides of the aisle to find out 
what direction the Administration and our Federal laws are 
heading in the future on the question of marijuana use and 
legalization.
    With that, I am pleased to welcome, with perfect timing, 
and we do have the full committee ranking member, but our 
ranking member of the subcommittee is Mr. Connolly, the 
gentleman from Virginia. You are recognized in whatever order 
you wish to proceed.
    Mr. Connolly. Mr. Chairman, thank you, but, as certainly a 
courtesy, I would defer to Mr. Cummings, the ranking member of 
the full committee, if he has a statement.
    Mr. Cummings. Thank you very much, Mr. Connolly, and to 
you, Mr. Chairman. I want to thank you both for holding this 
hearing.
    And you are absolutely right, Mr. Chairman, this is a very 
complex and difficult issue. I want to also thank Deputy 
Director Botticelli for testifying before the subcommittee.
    This is also a quickly changing issue, and the positions of 
conservatives and progressives alike are evolving as we learn 
from experiences of States with legalization initiatives.
    According to a Gallop poll taken in October, 58 percent of 
the American people favor the legalization of marijuana. Over 
the past eight years, 20 States and the District of Columbia 
have passed laws permitting the use of marijuana for medical 
conditions; and in 2012 Colorado and Washington chose to 
legalize, tax, and regulate limited amounts of marijuana for 
recreational use.
    I believe the purpose of today's hearing is worthwhile: to 
review the position of Federal agencies with respect to States 
that are legalizing marijuana both for medicinal purposes and 
recreational uses.
    The Office of National Drug Control Policy serves a very 
critical role in balancing our Nation's drug control efforts by 
coordinating Government-wide public health and safety 
initiatives that address drug use and its consequences in our 
communities. In addition, the Department of Justice is charged 
with enforcing the Federal Control Substances Act and it issued 
guidance to prosecutors in August on marijuana enforcement.
    Mr. Chairman, I am thankful that ONDCP is here today, but, 
as you know, I believe this hearing would have been more 
informative with the Justice Department at the table. I know 
our offices worked together to try to find a mutually 
acceptable date, and your decision to move forward today with 
ONDCP alone is not your prerogative. I hope we can continue to 
work together in a bipartisan way, as we have in the past, to 
get the viewpoints of the other agencies involved.
    Personally, I share your concerns about the negative health 
effects of marijuana, particularly on the youth in my district 
and across the Country. Even when it is used for medicinal 
purposes, people should understand very clearly that smoking 
marijuana is dangerous to their lungs and their hearts, and it 
results in a wide range of negative health effects.
    Apart from health concerns, however, I also have serious 
questions about the disparate impact of the Federal 
Government's enforcement policies on minorities. After 
reviewing the FBI uniform crime reports and State databases, 
one article found ``police arrest blacks for marijuana 
possession at a higher rate than whites in every State and 
nearly every city and county, despite the two races using 
marijuana at equal rates.'' My home State of Maryland has 
similar disparities in enforcement. In October, the American 
Civil Liberties Union issued a report finding that ``police 
arrest blacks for marijuana possession at higher rates than 
whites in every county in Maryland,'' accounting for 58 percent 
of arrests for marijuana possession.
    These disparities have a real impact on people's lives, 
their families, and their communities. An arrest for even the 
smallest amount of marijuana can disqualify a person from 
public housing, student financial aid, or even employment for 
life. These are the exact opportunities that so many low-income 
individuals need to lift themselves out of poverty.
    I think the President was exactly right when he said last 
week middle-class kids don't get locked up for smoking pot; 
poor kids do. African-American kids and Latino kids are more 
likely to be poor and less likely to have the resources and the 
support to avoid unduly harsh penalties and, I would add to 
that, records, criminal records that remain with them for a 
lifetime.
    For these reasons, Maryland has chosen to decrease 
penalties to 90 days for possession of marijuana in small 
amounts. It also required courts to consider a defendant's use 
of medical marijuana as an affirmative defense and it permitted 
research on medical marijuana.
    Mr. Chairman, I previously served as the ranking member of 
the subcommittee on Criminal Justice and Drug Policy, so I 
understand that there are various components to this debate. 
But one thing does concern me greatly: how in some States one 
can purchase marijuana and the people in my State and in my 
district are getting arrested and serving sentences. It just 
seems to me there is something not right about that I am hoping 
that you will address that, Mr. Botticelli, because these are 
serious consequences. It is one thing when you have equal 
enforcement, but it is another thing when some people are 
engaged in purchasing marijuana in the streets and other ones 
in the suites. So what happens is that you have unequal 
enforcement and you have many African-American young men, as 
you well know, spending long sentences sitting in prison, while 
others law enforcement don't even touch.
    So those are the kinds of concerns that I have, Mr. 
Chairman, and I am hoping that we will get to some of that 
today. With that, I yield back.
    Mr. Mica. The gentleman's time has expired.
    Mr. Turner, you had no opening statement.
    We will go back to Mr. Connolly.
    Before I do Mr. Connolly, ask unanimous consent that the 
gentleman from Tennessee, Mr. Cohen, be allowed to participate 
on this panel. Without objection, so ordered.
    We are also joined by Mr. Davis, who will be recognized 
after Mr. Connolly because he is on the committee, but not the 
subcommittee. And we will go in alphabetical order and we will 
hear from Mr. Blumenauer and Mr. Cohen next.
    Mr. Connolly, you are up.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing to examine the Federal response to State 
marijuana laws.
    I want to be clear from the outset. I am not unsympathetic 
to the concerns raised by skeptics on decriminalization. As a 
child of the 1960s, I witnessed firsthand the ravages of drug 
abuse among so many friends and so many idols my generation had 
in both Hollywood and in the music scene. I count myself, 
frankly, a skeptic.
    Further, as a former senior professional staff member on 
the Senate Foreign Relations Committee, one of my jobs was the 
authorization of the International Narcotics Matter Bureau of 
the State Department, and I traveled the world looking at 
production and distribution of illicit drugs and saw the damage 
caused. But it must also be noted that simply ramping up 
criminal penalties, such as enacting mandatory minimum 
sentences through the Boggs Act and the Narcotics Control Act 
of the 1950s, did not prove effective in countering the very 
movement and the very ravages I just talked about in the 1960s.
    In addition, as a member of Congress, it has been 
disappointing to visit countries such as Afghanistan, only to 
find that many of the current international narcotics control 
challenges are the very same ones I looked at in the 1980s.
    Further, despite my wariness of outright marijuana 
legalization, I am alarmed by the figures contained in a recent 
FBI report that found, in 2011, 750,000 Americans were arrested 
for marijuana law violations, which amounts to one American 
every 42 seconds; and that rate outpaced the total number of 
arrests made for violent crimes that same year.
    In 2010 alone, even in the face of budget shortfalls, 
States spent an estimated $3.6 billion enforcing marijuana 
possession laws, a total that represents a 30 percent increase 
compared to the amount spent a decade earlier, and this in a 
time of extreme budget constraints at the State and local 
level. In an era of constrained budgets, this drastic increase 
in enforcement costs raises the important question over how 
effective we are prioritizing limited law enforcement 
resources.
    It is troubling that despite four decades of Federal 
efforts to enforce the criminalization of the manufacture, 
distribution, dispensation, and possession of marijuana, the 
United Nations World Drug Report found that while global 
cannabis consumption stays fairly stable, marijuana use is 
actually increasing here in the United States.
    The Federal Government's ineffectiveness in significantly 
reducing marijuana becomes even starker when one contrasts our 
Nation's failure to stem rising marijuana use and trades with 
the results of our Country's anti-tobacco campaign, which has 
actually been pretty successful. Without resorting to a policy 
prohibition or criminalization, our Country has brought 
tremendous resources to bear in an effort to prevent and reduce 
tobacco use, especially among young people, and those efforts 
are working. Our Nation cut adult smoking in half, from 42.4 
percent in 1965 to 18 percent in 2012.
    Employing data-driven tactics, States and municipalities 
have continued to refinance the tobacco initiatives, enacting 
policies focused on creating smoke-free environments and 
increasing the price of cigarettes. Just today there was a new 
campaign announced by the United States Government aimed 
specifically at teenage smoking to deter it.
    These types of policies have led to impressive results. For 
example, California successfully lowered its adult smoking rate 
from 16.3 percent in 2000 to 12.7 percent 12 years later. And 
with respect to reducing frequent cigarette use among youth 
nationwide, the CDC reports the decrease has been dramatic, 
falling from 16.8 percent in 1999 to just 7.3 percent in 2009.
    Our steady progress in reducing tobacco use serves as a 
valuable reminder that the best policy is to prevent and reduce 
the use of harmful substances need not always be, and perhaps 
shouldn't be, total prohibition and criminalization.
    Beyond questions of effectiveness, Congress must also not 
forget the issue of equity, which the distinguished ranking 
member eloquently pointed us to. Research has found that in 
2010 black Americans were nearly four times as likely as white 
Americans to be arrested and charged with marijuana possession, 
even though both groups use marijuana in roughly equal 
percentages.
    Worse, the data indicates that these racial disparities are 
even greater when you dig down to the State level, black 
Americans being eight times as likely as whites to be arrested 
in certain States; Iowa, Illinois, and Minnesota, for example.
    I cannot help but view all of this data through the prism 
of my time in local government, where we prioritized results 
over ideology and we allowed evidence to guide policy, 
particularly when addressing matters of public health and 
safety. I have long believed that the Federal Government 
governs best when it truly listens and learns from the States, 
which for decades have served as the laboratories of our 
democracy. The citizens of the States across the Country seem 
to have spoken loud and clear; they want their local 
governments to have the opportunity to innovate, and even 
experiment, with regulatory and enforcement frameworks 
governing marijuana use specifically. I believe it is in our 
national interest to let those ongoing laboratories of 
democracy proceed and while we learn from them.
    With that, Mr. Chairman, I yield back and I thank you for 
your indulgence.
    Mr. Mica. I thank the gentleman.
    We will hear now from the gentleman from Illinois, Mr. 
Davis.
    Mr. Davis. Thank you very much, Mr. Chairman, and I too 
want to thank you for holding this hearing. I think many of us 
approach it with mixed feelings and mixed emotions. Over the 
weekend, I have been involved in several conversations simply 
with friends and relatives, and I don't think in any of those 
did we reach any conclusions. We all had different feelings, 
different thoughts, different ideas. I would like to be 
associated with the comments relative to the disparities in 
arrest that the ranking member made, as well as Mr. Connolly. 
Quite frankly, I think that my State, the State of Illinois, 
has a shameful record. There are a lot of things that I am 
proud of my State about, but when it comes to this kind of 
disparity it is hard to imagine that it actually does exist and 
that it is continuing.
    Mr. Botticelli, I would like to ask some questions relative 
to the role of ONDCP as we explore this issue and as we talk 
about it, and as we try and clarify what the role of your 
office might be relative to the prospective legalization of 
marijuana. According to the National Drug Control Policy 
Reauthorization Act of 1993, your office is not permitted to 
use any Federal funds to conduct any study or contract relating 
to the legalization for a medical use or any other use of a 
substance listed in Schedule I of Section 202 of the Controlled 
Substance Act, which includes marijuana. How does this 
congressional mandate restrict your ability to examine the 
spreading legalization of medicine marijuana and its alleged 
benefits?
    Oh, we are doing--well, I am delighted to continue in a-- 
Mr. Mica. No matter. It is a little hard to hear you, Mr. 
Davis. Just a little bit closer.
    Mr. Davis. That is generally very unusual; I am usually 
easy to hear.
    In a recent Gallop poll for the first time, a majority of 
Americans were in favor of legalized marijuana. In addition, 
there is a clearly growing tide of States that have moved to 
legalize medicinal marijuana, and I, for one, have held the 
position for quite a while that it could and should be used for 
medicinal purposes.
    However, I am not sure about the whole question of 
promoting in any way, shape, form, or fashion the usage for 
other reasons, because I am afraid that, as I have seen with 
alcohol in the community where I live, there are stores where 
individuals are lined up before 9:00, waiting for them to open, 
and I am fearful that we might see the same thing with the 
dispensation of marijuana.
    So, Mr. Chairman, I thank you for this hearing and I yield 
back.
    Mr. Mica. Thank you.
    We will now hear from Mr. Blumenauer, the gentleman from 
Oregon.
    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate the 
committee's courtesy in permitting me to join with you in this, 
and I think it is a timely and important hearing.
    I agree with the chair that the Federal Government is not 
necessarily coordinated on this. I agree that the committee has 
a responsibility to deal with the use of Federal dollars, and I 
think you referenced $25 billion spent on drug enforcement 
overall. And I certainly agree wholeheartedly with the dangers 
of adolescent use of marijuana.
    I think the question before us that we might be able to 
explore today, and I hope we are able, under your leadership, 
to move further is just how best are we going to address those 
issues.
    We have been engaged in an experiment of over 40 years of 
prohibition of marijuana, which has failed spectacularly. Fifty 
million people use it annually; about half the American public 
adult population has used it. As a couple of my colleagues have 
referenced, a majority of Americans now think it should be 
legal. And if you ask that question differently, if you say 
should the Federal Government respect the decisions of the 
States, like we do with alcohol, that percentage goes up even 
higher.
    Mr. Chairman, I noted last week in your State almost 
700,000 signatures were delivered that will require a vote in 
the fall on Florida becoming the first southern State to 
approve medical marijuana, and recent surveys indicate about 
two-thirds of the population now says they support it, and I 
have seen one survey that is much higher than that.
    We have talked about the costs. I think if we shift from a 
prohibition-enforcement-incarcerate and, instead, deal to tax 
and regulate, it is going to mean probably, conservatively, 
$100 billion of public dollars available over the next 10 
years.
    It is outrageous that 8 million people have been arrested 
in the last decade. And as several of my colleagues have 
mentioned, it is outrageous that African-American youth, 
primarily young men, are almost four times as likely to be 
arrested as white youth, even though, in fact, there is 
evidence that the white youth use marijuana as much or more 
than African-Americans. And I think it was Mr. Cummings who 
referenced some of the disparities in different regions. There 
are some areas in Louisiana where that disparity is 11 times 
greater for African-American youth.
    I do think the Administration needs to think through what a 
comprehensive approach should be. The President has 
acknowledged what most Americans know: marijuana is, frankly, 
not as dangerous to your health as tobacco, it is not as 
addictive.
    Congress is also out of touch, I would suggest, because 
Congress established the schedules that you referenced in your 
opening statement. According to what we have in statute, 
marijuana is Schedule I, which puts it on a par with LSD and 
heroin, has no medicinal properties, and is more dangerous than 
coke and methamphetamines. And I don't think you will find any 
sheriff, any district attorney, or any health expert who would 
remotely suggest that that is true.
    We are in a situation now where there is nobody who checks 
the identification of an adolescent. They are not asked to 
prove their age. There is no license that a drug dealer loses. 
Mr. Connolly's comments about the progress that we have made 
with tobacco, which is highly addictive and still kills 
hundreds of thousands of people a year, is significant, and I 
am hopeful that with this committee's leadership we can look at 
how maybe we rationalize this, that we don't interfere with the 
States where 146 million people live where it is perfectly 
legal to buy marijuana under State laws, most of it according 
to votes of the people.
    And there are little things that we can do to fix 
anomalies. Federal law forces legitimate marijuana businesses 
to be entirely cash; they can't get a bank account, and 
delivering their tax payments with shopping bags full of cash, 
if you care about money laundering, if you care about tax 
evasion and theft, is crazy. It is just crazy. And we tax these 
legally authorized, under State and local law, businesses two 
and three times more heavily than we treat other businesses. I 
note Mr. Norquist, Grover Norquist joined me in a press 
conference on legislation I have to fix that.
    Mr. Chairman, I appreciate your dealing with this issue. I 
appreciate your courtesy in allowing me to be with you, and I 
hope you can help shine a light and we can have this important 
conversation.
    Mr. Mica. Thank you for joining us.
    Just one thing I will point out. When I showed the schedule 
today and I had heard the President say that Congress had to 
resolve this matter, the staff, in their briefings to me, said 
that actually they have the authority to change that without 
Congress. So that is something I want to get into with Mr. 
Botticelli and where they intend to go on this, but some good 
points.
    Let me yield now a gentleman also not part of the panel but 
came to the hearing, thank you, Mr. Cohen from Tennessee.
    Mr. Cohen. Thank you, Mr. Mica. First, I want to thank you 
for allowing me to participate. I enjoyed serving under you on 
Transportation Committee. Secondly, I would like to incorporate 
by reference all of the things that have been said that are 
politically correct on this issue as if I said them. Basically, 
I agree with most of them.
    And I want to thank the President. I don't think the 
President has been schizophrenic. The President hasn't gone 
nearly as far as I would like to see him go on this issue 
because it is a freedom issue. But the President has gone 
somewhat in enlightening the public as to priorities and as to 
Louis Brandeis and the laboratories of democracy, and we are on 
the right path.
    I would submit, with all due respect to my fellows on the 
other side, that schizophrenia, which my father was a 
psychiatrist and taught me something about, could be described 
as a party that talks about saving money all the time and being 
concerned with deficits and being totally driven by that, but 
not being concerned and saving money when people are in jail 
for marijuana and mandatory minimums that judges have said were 
awful, and for non-violent, first-time offenders who are 
serving lifetime sentences in jail, costing us $30,000 a year, 
and the population of jails has gone up 800 percent in the last 
30 years. That is schizophrenia. You are concerned about costs 
and cutting costs, but not when it is jailing a population.
    I think it is schizophrenia when you offer State issues and 
preemption and priorities and giving power back to the States, 
but not when it comes to them having passing laws concerning 
marijuana. Then you are not for State initiatives and State 
priorities. And I think there is a certain schizophrenia for a 
party that talks about civil liberties, but not when it comes 
to personal liberties on this subject.
    So sometimes politics makes strange bedfellows, and whether 
they are in the same bin as McMurphy or not is another issue to 
be discussed.
    Mr. Botticelli, your hands are tied on Schedule I, but it 
is ludicrous, absurd, crazy to have marijuana in the same level 
as heroin. Ask the late Philip Seymour Hoffman, if you could. 
Nobody dies from marijuana; people die from heroin. And every 
second that we spend in this Country trying to enforce 
marijuana laws is a second that we are not enforcing heroin 
laws. And heroin and meth are the two drugs that are ravaging 
our Country, and every death, including Mr. Hoffman's, is 
partly the responsibility of the Federal Government's drug 
priorities for not putting total emphasis on the drugs that 
kill, that cause people to be addicted and have to steal to 
support their habit; and heroin and meth is where all of your 
priorities should be. And it is not just Mr. Hoffman, a 
brilliant actor at 46 years of age, who first went to 
prescription drugs and then came back to heroin. That is our 
two major issues, I guess.
    I had a young friend, son of a girl I dated, who died of a 
heroin overdose about two years ago. I went to a party in 
Memphis recently; not Vermont, where the governor spent his 
entire state of the State hour address talking about the 
ravages of heroin in his State, but Memphis, Tennessee, where 
four women, give or take my age, well, maybe 15 years younger--
sometimes I lose perspective--talked about heroin being a great 
problem among their children and in the Memphis community, and 
about another young man who had died of heroin. Heroin is 
getting into the arms of young people.
    And when we put marijuana on the same level as heroin and 
LSD and meth and crack and cocaine, we are telling young people 
not to listen to the adults about the ravages and the problems, 
and they don't listen because they know you are wrong. Because, 
as Mr. Mica said, we know a lot of young people smoke 
marijuana. They shouldn't. Young people should be being young 
people. The most precious commodity in the world is time. Young 
people have lots of time; Mr. Mica and I don't have that much 
more time. That is just the realities. And when you are young, 
enjoy being young; playing ball, taking it easy, just doing 
kids things and learning. And you shouldn't be doing drugs, but 
they are; and we need to make sure that we keep them alive. We 
need to educate them, but our efforts ought to be toward meth 
and heroin. That is where our efforts should be. And it 
shouldn't be Schedule I.
    Anybody that goes to jail for marijuana is a crime, when 
people, for possession, are taking their liberties away. It is 
a waste of money, it is a waste of resources; it is a crime 
committed by our Government. There is a cultural lag in this 
Country, and this Congress is a leader in it.
    My time has expired. I thank the committee for allowing me 
to express myself. I will participate in questioning and yield 
back the non-existent remainder of my time.
    Mr. Mica. I thank the gentleman and thank each of the 
members for their opening statements.
    We will now turn to our witness at this hearing. The 
witness is Mr. Michael Botticelli. He is the Deputy Director of 
the Office of National Drug Control Policy.
    Mr. Botticelli, it is the custom and practice of our 
committee and subcommittee, as an investigative oversight panel 
in Congress, to swear in our witnesses, so if you would stand, 
please. Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    [Witness responds in the affirmative.]
    Mr. Mica. The witness answered in the affirmative and we 
will let the record reflect that.
    Mr. Botticelli, you are the only witness today, so we won't 
hold you too much to the five, but we will try to keep you 
within that. If you have additional information you would like 
to have submitted to the committee, the subcommittee, we would 
welcome that through the request of the chair. Again, we thank 
you for your participation and we will recognize you now for 
your opening statement.

STATEMENTS OF MICHAEL P. BOTTICELLI, DEPUTY DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Mr. Botticelli. Chairman Mica, Ranking Member Connolly, and 
distinguished members of the subcommittee, thank you for this 
opportunity to address the public health and safety issues 
surrounding marijuana in the United States. My name is Michael 
Botticelli. I am the Deputy Director of the White House Office 
of National Drug Control Policy. Before I was sworn into this 
position in November 2012, I was the director of the Bureau of 
Substance Abuse Services in the Massachusetts Department of 
Public Health. I have over 20 years experience working in 
public health. I also served a variety of leadership positions 
and roles for the National Association of State Alcohol and 
Drug Abuse Directors. In addition, I am proud to say that I am 
one of 23 million Americans who is also in long-term recovery 
from addictive disorders.
    The Office of National Drug Control Policy was established 
by Congress in 1988 with the principal purpose of reducing 
illicit drug use, manufacturing and trafficking, drug-related 
crime and violence, and drug-related health consequences. We 
produce the National Drug Control Strategy, which is the 
Administration's primary blueprint for drug policy. This 
strategy is a 21st century plan that is based on science and 
research.
    I am here today to testify specifically about marijuana, 
the considerable public health consequences associated with the 
drug, and ONDCP's ongoing efforts to reduce and prevent its use 
and related consequences throughout the Nation.
    In 2012 alone, nearly 32 million Americans aged 12 and 
older reported using the drug within the past year, making it 
the most commonly used illicit drug in the United States. 
Unfortunately, although overall marijuana use rates in the 
United States are well below what they were in the late 1970s, 
they have increased in recent years. Since 2007, current 
marijuana use among Americans 12 or older has increased from 
5.8 percent to 7.3 percent in 2012, a difference of over 4 
million people.
    While national survey indicate that marijuana use rates 
among young people aged 12 to 17 have decreased from 8 percent 
in 2002 to 7 percent in 2012, this trend masks recent increases 
in use among young people, particularly between 2008 and 2011.
    Science tells us that as youth perceptions of marijuana 
decline, their use of marijuana goes up. And data from the 2013 
Monitoring the Future Survey reveal that the perceived harm of 
using marijuana regularly among eighth and tenth graders is at 
its lowest point since the survey began collecting this 
information in 1991, and among high school seniors it is at the 
lowest since 1978.
    We also know that marijuana has considerable health and 
safety implications for users themselves, their families, and 
our communities. In 2012, approximately 4.3 million Americans 
met the diagnostic criteria for abuse or dependence on 
marijuana, more than any other drug. Marijuana use can have 
implications for learning and memory, and long-term use of 
marijuana begun during adolescence is associated with an 
average eight point lower IQ later in life. And we are 
concerned about major increases in marijuana's potency, which 
has tripled over the past 30 years.
    The consequences of marijuana use are particularly acute in 
our healthcare and substance use disorder treatment system. In 
2011, marijuana was involved in nearly 456,000 emergency 
department visits nationwide, and in 2012 approximately 314,000 
Americans reported receiving treatment for marijuana use in the 
past year, more than any other illicit drug and trailing only 
alcohol and pain relievers. These figures represent a sobering 
picture of this drug's very real and serious consequences.
    This Administration has been consistent in its opposition 
to attempt to legalize marijuana and other drugs. This 
opposition is driven by what medical science and research tells 
us about the drugs. We know that calls for legalization often 
paint an inaccurate and incomplete picture of marijuana's 
significant health consequences. And while voters in Colorado 
and Washington voted to legalize the sale and distribution of 
marijuana in their States, the vote does not change the 
negative public health consequences of marijuana. Even 
advocates of the law in these States acknowledge the negative 
public health effects and maintain that underage use should not 
be permitted.
    As you indicated, chairman, in establishing the Controlled 
Substances Act, Congress determined that marijuana is a harmful 
drug and made the illegal distribution and sale of marijuana a 
serious crime. Recent State laws have not changed the Federal 
status of marijuana as a Schedule I controlled substance, and 
the Department of Justice's responsibility to enforce the CSA 
remains unchanged.
    As the Department of Justice has noted, Federal drug 
enforcement resources prioritize and target serious crimes of 
dealing, violent crime, and trafficking. The Department of 
Justice has not historically devoted resources to prosecuting 
individuals whose conduct is limited to possession of small 
amounts of marijuana for personal use on private property. 
Recent Department of Justice guidance is consistent with this 
position and focuses on protecting public health and safety in 
States and communities, a goal shared by the entire 
Administration.
    Office of National Drug Control Policy strategy has 
supported a wide variety of programs to prevent illicit drug 
use from occurring, to treat those with substance use disorders 
in order to avoid involvement with the criminal justice system, 
and encourages criminal justice system reforms to more humanely 
and more effectively treat those with substance use disorders 
through health interventions.
    To this end, we have supported a variety of community 
prevention efforts. One such powerful tool is the Drug Free 
Communities Support Program, a program funded by the Office of 
National Drug Control Policy. DFC coalitions across the Country 
have identified marijuana as a significant problem in their 
communities. Recent evaluation data indicate that where DFC 
dollars are invested and coalitions operate, substance use is 
lower. We are working with our congressional partners on 
reauthorization of this vital program.
    Our Above the Influence media campaign, which is being 
transitioned to the partnership at DrugFree.org is another 
important national tool for informing and inspiring young 
people to reject illicit drugs, including marijuana.
    We also know that there is a significant treatment gap in 
the United States. Only one in 10 people who meet diagnostic 
criteria for a substance use disorder get care for their 
disorder, and often that is because of lack of insurance 
status. We recognize that we need to provide treatment for 
those who are dealing with the consequences of drug use. The 
Affordable Care Act will expand coverage for substance use 
disorder treatment. An estimated 27 million people, previously 
uninsured Americans, will have coverage that includes a 
substance use disorder benefit. In addition, ONDCP has 
identified reducing drug driving as a national priority. Data 
from the Department of Transportation show that in 2009 
cannabinoid use was reported among 29 percent of fatally 
injured drivers who were tested for the presence of drugs.
    In conclusion, ONDCP continues to work with our partners to 
reduce the public health effects of substance use, including 
marijuana. We know that there are ways to prevent and reduce 
substance use in America, and we look forward to working with 
Congress on this objective. Thank you.
    [Prepared statement of Mr. Botticelli follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Thank you. We will turn to questions.
    I am going to yield first to Mr. Turner, who has another 
obligation.
    Mr. Turner. Mr. Chairman, I greatly appreciate that. I do 
have another objection. This gives me an opportunity to ask our 
question.
    Mr. Botticelli, in your statement I was very taken by the 
sentence that says, ``The Administration continues to oppose 
attempts to legalize marijuana and other drugs.'' So the 
natural question to you is has the Office of the National Drug 
Control Policy been asked to weigh in on marijuana legalization 
battles that are going on in the States? If yes, what advice 
have you given during those battles and do you plan to 
proactively weigh in on future legislative initiatives? If you 
continue to oppose it, what have you done?
    Mr. Botticelli. Our role in terms of legalization efforts 
has been to provide constituents at both the national, State 
level, and community level with accurate information as it 
relates particularly to the health consequences.
    Mr. Turner. How do you do that? What constituents? Do you 
post it on your website? Do you actively get in touch with the 
decision-makers? Do you engage in the dialogue that is 
occurring during these debates?
    Mr. Botticelli. We do it through our website by putting 
information on our website.
    Mr. Turner. Going to my next question, despite the 
implementation of what allegedly are legal dispensaries, the 
DEA has found illegal operations and has raided several 
marijuana dispensaries in Colorado. How confident are you that 
100 percent of the drug trade in Colorado is free from the 
influence of drug cartels?
    Mr. Botticelli. Sir, unfortunately, I am the only 
representative at this hearing today, and I would ask that you 
defer those questions to either Department of Justice or DEA.
    Mr. Turner. We will do that. The only reason why I ask you 
this question is because when you stated in your written 
testimony what your role was, you said it was, we are 
established by Congress for the principal purpose of reducing, 
and I see the line here, drug-related crime and violence and 
drug-related health consequences, trafficking, and so I thought 
you would have a statement with respect to drug cartels.
    Third question, what are you doing to ensure that marijuana 
will not be exported from legal States to illegal States? 
Again, seeing that from your written statement that is 
certainly part of what you were tasked with by Congress. What 
do you see there, sir?
    Mr. Botticelli. So, as you are aware, in the August 
Department of Justice memo, they set out a criteria for any 
State that is moving toward legalization in terms of States' 
responsibility in implementing legalization efforts in terms of 
marijuana. Clearly, one of those criteria that the Department 
of Justice is looking at is preventing the States' 
responsibility in preventing the transportation of marijuana in 
States where it is legal to where it is not. It is incumbent 
upon the States to ensure that that does not happen.
    Our role, in terms of Office of National Drug Control 
Policy, is to really monitor not only the public safety, that 
criteria that they have laid out, but other public health and 
public safety criteria to determine what is the impact of 
legalization in those States as it affects those criteria.
    Mr. Turner. Do you have concerns as to what you are seeing 
from their monitoring?
    Mr. Botticelli. At this point, we are still gathering data, 
and I think it is premature to speculate in terms of those 
criteria and what the impact is seeing.
    Mr. Turner. Well, again, looking back to what you described 
as your own congressional charter, obviously there is an 
expectation on the behalf of Congress that there would be an 
active role that you play. We look forward to your conclusions.
    Mr. Chairman, thank you.
    Mr. Mica. Thank you, Mr. Turner.
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman. Again, I would yield 
to the distinguished ranking member of the committee if he 
wishes to.
    Mr. Cummings. Thank you very much. I want to thank the 
gentleman for yielding.
    I want to discuss what a conviction for marijuana 
possession, no matter how small, means for most individuals 
across the Country. With a conviction, a person loses the right 
to vote, Federal financial aid and public housing assistance. 
Conviction erodes employment opportunities and future earning 
potential. And I can tell you that I live in a neighborhood 
where The Wire was filmed, so I see a lot of young men who have 
basically been sentenced to a life term of not being able to 
move as a normal citizen would in this society.
    Deputy Director, let me ask you this. Isn't it true that 
convictions for even minor, non-violent drug possession have a 
significant negative effect on an individual, their families, 
community, and the Nation? Would you agree with that?
    Mr. Botticelli. I would, sir. And by way of context, when 
Director Kerlikowske took this position--Director Kerlikowske 
is the Director of Office of National Drug Control Policy--a 
former police chief in Buffalo and Seattle, took this position, 
he clearly articulated that we cannot arrest our way out of the 
problem; that what we need to do is really have a robust 
strategy reflecting in our strategy prevention, intervention, 
and treatment, and a series of criminal justice reforms that 
does everything we can to divert people away from the criminal 
justice problem. And I can tell you, I was in Massachusetts at 
the time as the director, and it really signaled to me an 
important shift in drug policy, away from a war on drugs 
approach and really looking at this as a public health related 
issue, particularly as it relates to the racial and ethnic 
disparities that we see as it relates to drug use.
    Part of the role of our office is to also look at what are 
the impediments for those people in recovery, like me, who 
often do have criminal records and what does that impairment 
mean in terms of their ability to have a vibrant life in the 
community and seek meaningful employment and meaningful 
housing. So, to that end, we have been focusing on actions to 
diminish those barriers.
    So clearly those issues are important to us. I think you 
will find that they are reflected in our strategy and making 
sure that we are not dealing with this just as a public safety 
issue, but how we think about prevention, treatment, recovery 
support, and, again, looking at smart criminal justice reforms 
to make sure that we are not incarcerating people for low level 
non-violent offenders. I think, as you know, Department of 
Justice has been supporting many States' efforts around justice 
reinvestment and are clearly understanding, both from an 
economic perspective and a humane perspective, we can't 
continue to incarcerate our way out of this.
    Mr. Cummings. Well, let me ask you this. How do you all 
interact, that is, ONDCP, with the Justice Department with 
regard to when you have some States saying recreational drugs, 
you can purchase them, and then most States saying you go to 
jail? I think that that is what, I think, this hearing was 
trying to get to. Where are we going with that? Because it is 
just seems so incredibly unfair that you would have a 
situation--and like I said, I see people that are affected by 
these laws every day. On the other hand, I am also concerned, 
very much so, and Mr. Mica, remember when he and I were 
involved in the criminal justice subcommittee, we both are very 
concerned about the effects of marijuana. So how do you all try 
to strike that balance?
    Mr. Botticelli. I would say, representative, that that is 
the entire position of our strategy, that it is not kind of war 
on drugs, arrest people, send them to jail on one hand and, 
quite honestly, legalize as the silver bullet to our problem; 
that we believe in a much more balanced and middle of the road 
approach that deals with this as a public health-related issue. 
And the primary way that we do that is by setting the 
Administration's national drug control strategy. Obviously, 
that is transmitted to Congress. And a big portion of that is 
really about smart criminal justice and innovative criminal 
justice reforms that look at not incarcerating people, not 
arresting people for low level violent use, but making sure 
that folks have access to a wide variety of public health 
interventions, too.
    Mr. Cummings. And I just want to make sure you are clear. 
It is just not the incarceration, you are right. I mean, when a 
person gets a record, a record, they are doomed for life. So it 
is not just the incarceration.
    I see my time is up, Mr. Chairman. Thank you.
    Mr. Connolly. Would the chairman just allow me----
    Mr. Mica. Go right ahead.
    Mr. Connolly. If the distinguished member would yield.
    Mr. Cummings. Of course.
    Mr. Connolly. You and I have worked together on problems 
involving the ability of people to cast a vote. To your very 
last point, Mr. Cummings, is it not true that among the things 
that affects them for life, it can also affect their ability to 
participate in the electoral system?
    Mr. Cummings. Reclaiming my time. Yes.
    Mr. Connolly. I thank the chair.
    Mr. Mica. Okay.
    Well, Mr. Botticelli, you are the deputy director of the 
Office of National Drug Control Policy. That office is under 
the White House, right? Now, when the President said I don't 
think, referring to marijuana as more dangerous than alcohol, 
what was your reaction?
    Mr. Botticelli. I think the Administration's policy has 
been consistent as it relates to----
    Mr. Mica. But he is the chief executive and the office that 
you are in was set up under the White House to report to the 
President. You just got through saying that it is dangerous, we 
continue to spend resources to try to stop children and others. 
You also said since the beginning of 2007 to most recent 
statistics we have seen an increase in adolescent use and 
abuse. Then the President said it is important that we go 
forward, and he was speaking with legalization, because it is 
important for a society not to have a situation where a large 
portion of people have at one time broken the law and only a 
select few are punished. I mean, this is in conflict with what 
you were using taxpayer dollars to try to avoid. You just got 
through also testifying 314,000 in treatment for marijuana, 
which is only surpassed by alcohol abuse, is that correct?
    Mr. Botticelli. That is correct.
    Mr. Mica. So we have more use, which is there anybody here 
that wants to legalize this for adolescents? I don't think so. 
But we are getting more hooked, and the President comes out 
with this statement. I am afraid, too, we have gone from just 
say no and then we had I didn't inhale, and now it is just say 
maybe or just go ahead, and it does concern me because our 
youth are the most impressionable.
    I was asking my staff, because I remember turning to a 
political consultant, a little bit controversial, but one of 
the best in the business, Dick Morris, and I had worked on some 
campaigns with him and I said, Dick Morris, I believe, lost his 
brother to drug substance abuse and Dick was convinced that the 
way to change public opinion was with ads and you can change 
public opinions in that regard. That is where we launched some 
of our ads. We originally were trying to get the media, which 
is about as slack as you can get in putting up ads, even though 
we control the airwaves and they are supposed to be free. But 
then I think the deal we cut with Clinton was to have half paid 
and half donated time. Are we still doing those ads? I mean, to 
influence public opinion in young people, you have ads and now 
we have emails, we have Twitter and texting and a whole host of 
social media. Are we paying taxpayer money to use those 
techniques, which are supposed to be the most effective, to try 
to curtail--again, I think we would start with adolescents. 
Adults are one thing, but adolescents. Are we doing that?
    Mr. Botticelli. Our office has been administering the Above 
the Influence campaign, which uses a wide variety of largely 
social media techniques----
    Mr. Mica. Have we dropped going after marijuana?
    Mr. Botticelli. So----
    Mr. Mica. Have we dropped going after marijuana? Do we have 
any ads? We have done a great job on tobacco, particularly, in 
the last few years, but what about marijuana?
    Mr. Botticelli. So I have been doing prevention work for a 
long time and for a wide variety of areas. In Massachusetts, 
tobacco control was under my authority, as well as substance 
use. And I think what we know in terms of prevention science is 
that often we have to focus on providing youth with resiliency 
skills to resist a wide variety of substances.
    Mr. Mica. But you are not answering my question. Is the 
United States of America, under the Office of National Drug 
Control Policy, do we have any programs that you are aware of 
that are advertising to change the behavior of adolescents in 
regard to marijuana today?
    Mr. Botticelli. Yes, we are.
    Mr. Mica. We are. Specific? Maybe you can provide us with 
some copies. I would like to see what we are doing, because the 
law is going in a different way in some of the States. I mean, 
we haven't even gotten into the conflict using law enforcement 
resources. Mr. Turner just talked about them coming in raiding, 
Federal authorities, in States which have now taken measures 
and other people have taken advantage of. But I am concerned, 
again, the trend with young people. I am not sure where we are 
going to go with this whole thing. I have my own opinions. I 
was talking with Mr. Connolly, he has his. There is the medical 
marijuana use issue; there is a recreational use; there is the 
legalization use. But I think we have the most schizophrenic 
policy I have ever seen as far as dealing with a social issue 
and, again, with laws that are in conflict with public 
spending, which is in great conflict.
    Mr. Botticelli. So one of the things that I can say both in 
terms of the public information campaign that we have been 
running, as well as our Drug Free Communities programs that 
both have had independent evaluations and they are a success, 
with our drug free coalitions and through independent 
evaluation of our Above the Influence campaign, that we have 
been able to make significant progress; that we have evidence 
of effectiveness of a wide variety of our prevention programs. 
And I agree, I think many of those strategies were adapted from 
tobacco campaign programs in terms of how you provide those 
messages to youth. Our work----
    Mr. Mica. Well, again, we have had some successes, but I 
don't know exactly how much money we have been spending. We are 
going to find that out for the record; you are going to provide 
it to the committee. It doesn't sound like we have had much 
success. You just testified actually increase in some of those 
categories. Got large number in treatment. Then sort of the 
icing on the cake is, by the way, our new health care will 
cover it, so don't worry, you are covered for treatment. Once 
you get to treatment, you are pretty bad off.
    Let me ask you a question. Mr. Cummings and I chaired the 
subcommittee. Everyone we had come before us said that 
marijuana is a gateway drug; most people who go to the other 
harder drugs start up with marijuana. Is that still the case or 
has that changed? Are they going straight to other drugs now?
    Mr. Botticelli. So let me respond to a number of questions 
that you have raised here. So, first and foremost, if you look 
at a wide variety of drug use indicators in the United States, 
we have made significant progress in many areas. We have seen 
reductions in youth use of alcohol; we have seen reductions in 
cocaine; we have seen recent reductions in prescription drug 
use. So I think we have seen that where we--and those are 
direct areas of focus for our national drug control policy.
    Mr. Mica. I met with local police officers last week for 
breakfast and they told me two things. They said it is not 
getting any better. It looks like some of the deaths have 
dropped, but they said that is only because they have better 
treatment, they are catching them, but actually the incidents 
are up, and they shift from drugs. It is now, because of this 
there isn't much risk, it is socially acceptable, go to 
marijuana, but the adult population, too, is shifting back to 
methamphetamines and prescription drugs, as you know, has 
spiraled, misuse of them has spiraled out of control.
    Mr. Botticelli. But your point in terms of the increase in 
terms of marijuana use I think is particularly important, and 
if you talk to Dr. Nora Volkow, who is the Director of the 
National Institute on Drug Abuse, kind of the preeminent 
researcher in this area,--you know, we support most of the 
world's major research as it relates to drug and drug-related 
issues--she will tell you that prevention science tells us that 
when people see things as less risky, think of yourself and 
your own behavior, that you are more likely to do it. One of 
the reasons why we have had success with tobacco is kids see it 
as risky. And, unfortunately, kids no longer see, the vast 
majority of kids no longer see marijuana as risky. So it is no 
surprise that----
    Mr. Mica. Right after the President's statement, too, when 
he said it is no different than alcohol. I am only reciting 
what others have said. The DEA chief, one of their chiefs said 
he viewed last Wednesday, I guess it was called the 
legalization of marijuana at the State level reckless and 
irresponsible, warning that the movement to decriminalize the 
sale of pot in the United States will have serious 
consequences. Do you agree or disagree with that?
    Mr. Botticelli. Again, the Administration's position has 
not changed as it relates to----
    Mr. Mica. So you agree with what he says?
    Mr. Botticelli. The President has indicated that this is a 
public health challenge and that we need to deal with it as a 
public health challenge.
    Mr. Mica. Well, again, the President--I mean, I didn't 
start this; the President made his comments, and now you have 
different agencies, including yourself under the President, 
saying something different than what we are hearing in some 
quarters.
    With that, let me go to Mr. Connolly, because you yielded.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, Mr. Botticelli.
    Mr. Botticelli. Thank you.
    Mr. Connolly. Let me just say I have enjoyed your paintings 
for many years. Thank you very much.
    Mr. Botticelli. I wish I could say that.
    Mr. Connolly. We are honored. I know. I couldn't resist. 
Are you from Massachusetts, by the way, originally?
    Mr. Botticelli. I am from Massachusetts.
    Mr. Connolly. Where?
    Mr. Botticelli. I lived outside of Boston, in Malden, 
Massachusetts.
    Mr. Connolly. I am from Brighton and Allston.
    Mr. Botticelli. Oh, you are?
    Mr. Connolly. And I can talk like that if I have to.
    Mr. Botticelli. My first apartment was on Camh Avenue.
    Mr. Connolly. All right. Well, glad to have you here.
    To this point about the President's statement, I mean, 
holding in abeyance whether he should or shouldn't have made it 
or what he intended from it, how many people die from marijuana 
overdoses every year?
    Mr. Botticelli. I don't know that. I know it is very rare 
for someone to die.
    Mr. Connolly. Very rare.
    Mr. Botticelli. Yes.
    Mr. Connolly. Now, just contrast that. Prescription drugs, 
prescription drugs, unintentional deaths from prescription 
drugs, one American dies every 19 minutes. Nothing comparable 
in marijuana, is that correct?
    Mr. Botticelli. Correct.
    Mr. Connolly. Alcohol. Hundreds of thousands of people die 
every year from alcohol-related deaths. Automobiles, liver 
disease, esophageal cancers, blood poisoning from too much 
toxicity from alcohol, is that not correct?
    Mr. Botticelli. Let me----
    Mr. Connolly. No, Mr. Botticelli, is that correct?
    Mr. Botticelli. I think the way that you have to look at 
this is that the totality of harm that is associated with a 
substance, and to basically say that because marijuana doesn't 
have the lethality and the overdose potential that heroin or 
alcohol does diminishes, I think, the significant health 
consequences that are associated with the drug.
    Mr. Connolly. Well, I guess I am sticking with the 
President, the head of your administration, who was making a 
different point, and he was making a point that is empirically 
true, that isn't a normative statement that marijuana is good 
or bad, but he was contrasting it with alcohol, and empirically 
he is correct, is he not?
    Mr. Botticelli. I think the point here is that the 
Administration's position has not changed----
    Mr. Connolly. Mr. Botticelli, I am not asking you that 
question.
    Mr. Botticelli.--and that when you look at alcohol and 
substance abuse, marijuana, that we have to look at this as a 
public health related issue. So I have to say this morning----
    Mr. Connolly. Mr. Botticelli, excuse me, no. I am asking 
the questions here, Mr. Botticelli, and I am asking you, I am 
directing you to answer them. If you want to add your opinion, 
fine, but is it not a scientific fact that there is nothing 
comparable with marijuana? And I am not saying it is good or 
bad, but when we look at deaths and illnesses, alcohol, other 
hard drugs are certainly, even prescription drugs, are a threat 
to public health in a way that, just isolated, marijuana is 
not? Isn't that a scientific fact? Or do you dispute that fact?
    Mr. Botticelli. No, no, I don't dispute that fact.
    Mr. Connolly. Okay.
    Mr. Botticelli. But may I continue?
    Mr. Connolly. Well, just a second.
    Mr. Botticelli. I think----
    Mr. Connolly. I hear brickbrats being thrown at the 
President as if he did something reckless, and my view is he 
was trying to put this into perspective, because there are 
States that have decided to go down a different path, and my 
friends on the other side of the aisle are all for States' 
rights when it comes to guns or gay marriage or other things, 
but apparently in this case States have no business getting in 
the drug business.
    Let me ask you this question. It looks to me like public 
opinion has shifted profoundly. Twenty States and the District 
of Columbia now allow marijuana to be used for medical purposes 
and two States, by law, in referendum, just voted to legalize, 
regulate, and tax the recreational use of marijuana. That is 
almost half the Country. And then you look at Portland. In 
1969, when the war on drugs began under Richard Nixon, only 12 
percent of the population supported legalizing marijuana. That 
same percentage today is 52 percent. That is a huge change in 
public opinion.
    Given all of the efforts again, as the chairman said, Just 
Say No under Nancy Reagan, and all kinds of PSAs on television 
and radio and newspaper in trying to make sure that we 
highlighted how dangerous drug use of any kind could be, why do 
you think public opinion has shifted so dramatically on the 
issue of marijuana?
    Mr. Botticelli. Again, from my standpoint, and I will speak 
candidly, that I am not sure the public is getting a fair and 
accurate view, particularly as it relates to the public health 
consequences of marijuana. I think that it has been portrayed 
as benign substance. I don't think that they fully understand 
or have gotten information to really understand the magnitude 
of the issue. So I think that that is part of the issue. And we 
have seen this with other substances, we have seen this with 
prescription drug abuse, that when people see something that is 
legal, when they see that it is often prescribed by a 
physician, people see it as benign and not harmful. So it is 
not a surprise for me to see that change in public perception.
    Mr. Connolly. All right, let me pick up on the point you 
are making. First of all, this whole issue of is it a gateway 
drug, is there empirical evidence that in fact it is a gateway 
drug? Can we empirically correlate the use of marijuana to then 
moving on to other more dangerous substances?
    Mr. Botticelli. So we know that the earlier that someone, 
and particularly in adolescence, uses marijuana, the more 
likely they are to develop a dependence and go on to more 
significant issues. And if you look at those folks who have an 
opiate disorder, prescription drugs or heroin, they will often 
tell you and you will often see that they started with early 
tobacco, early alcohol, and early marijuana use.
    Mr. Connolly. But, Mr. Botticelli, that is a logical 
fallacy. Yes, that is true, but that begs the question of the 
fact that millions of Americans, Mr. Blumenauer I think cited 
50 million, have used marijuana and they didn't go on to all 
those other drugs. So we have to segregate the addictive 
personality from the recreational, occasional user. And, again, 
I mean nothing normative by this. I already said in my opening 
statement I am a child of the 1960s. I am extremely leery of 
legalizing any drugs; I have seen the damage. But I want us to 
be basing--the fact of the matter is the war on drugs doesn't 
look like they work very well in public opinion, in demand, you 
know, whereas other campaigns, such as tobacco, that are 
voluntary actually have worked. So maybe we could learn 
something from that, as opposed to incarcerating especially 
minority populations in this Country; and that doesn't seem to 
have worked either, it doesn't seem to have reduced demand.
    Mr. Botticelli. Representative Connolly, so I think just 
focusing on marijuana as a gateway drug obviates the total 
harms associated with substance. We know many people who use 
alcohol and get into problems, and they don't have an addictive 
disorder. But that doesn't mean that there is not harms 
associated with use. And the same is true with marijuana. We 
know about one in nine people who use marijuana go on to 
develop a dependency. But we also know that there are health 
consequences associated with marijuana use in general, and 
particularly with adolescents and young adults. So, again, 
National Institute of Drug Abuse has shown that youth brain is 
in development up until 25 years of age and that regular 
substance use, including marijuana use, can have significant 
long-term effects. We are not talking about folks who gateway 
to other drugs, but we are talking about just marijuana use in 
general.
    So I think you really have to look at not just those people 
who go on to develop addictive disorders. Yes, we need to be 
concerned about that. But you really have to look at the 
totality of harm. Think about the number of people who use 
marijuana and get in fatal car accidents. They may not have an 
addictive disorder, but clearly their marijuana use has had 
significant health consequences.
    Mr. Connolly. My time is long up and I thank the chair for 
his indulgence. I would just say, though, the problem with that 
logic is it takes us exactly where we are today. So it fills up 
our prisons, even when it is really a small amount of 
possession, and where the effect is we treat somebody no 
different than if they committed a violent crime. And those 
inequities in our prison system are the consequence of treating 
marijuana exactly the way you just described it.
    Mr. Botticelli. I think under this Administration we have 
really tried to move away from that war on drugs and arresting 
and incarcerating. So this is where we believe that there is a 
balanced approach here; not legalization that has some of the 
attendant public health consequences to it and not a war on 
drugs approach, but really looking at dealing with this as a 
public health-related issue and utilizing criminal justice 
reforms to make sure that we are not arresting and 
incarcerating. So our policy and our position really focuses on 
that middle ground in terms of both innovative criminal justice 
reforms and dealing with this as a public health-related issue.
    Mr. Mica. Arresting and incarcerating. I wish Mr. Cummings 
had stayed, but let me yield to the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much.
    Mr. Director, I think you partially answered the question, 
because as we continue this discussion, could you refresh for 
me just what the purpose and mission of the Office on Drug 
Control Policy is?
    Mr. Botticelli. Sure. So again we were established by 
Congress in 1988 with the authority of really setting the 
Administration's national drug control strategy. We produce 
that strategy, we send it to Congress every year, and it really 
is a blueprint, an interagency blueprint for how, one, the 
Administration is going to handle drug-related issue and really 
looking at this whole of Government approach to how we are 
dealing. So each agency has a role to play, as well as looking 
at their budgets and making sure that they are aligning their 
budgets with those drug control strategies. So it sets the 
Administration's drug control policy, it looks at strategic 
priorities, it looks at interagency cooperation and interagency 
action as it relates to how they are going to implement those 
drug control strategies.
    Mr. Davis. Do you make recommendations to agencies and to 
Congress and to the public in general?
    Mr. Botticelli. The expressed purpose of our strategy is 
really to look at how the Federal Government is going to 
respond and what is our policy related and how other agencies 
align their work with those policies.
    Mr. Davis. We have just heard a great deal of discussion 
relative to disparities among population groups relative to 
arrests and the judicial process. Would the agency have any 
position on any of that, or would it have any recommendations, 
based upon what we have just heard, about disparities and 
arrests and the judicial process?
    Mr. Botticelli. Sure. You know, when you look at our 
strategy, and this was set in the original 2009 Obama 
Administration strategy, again, it really focuses on a wide 
variety of criminal justice reforms to look at that, about how 
we make sure that we are diverting people from the criminal 
justice system. You know, one of the things that we have been 
really promoting, again with the Bureau of Justice assistance, 
is the expansion of drug courts in the United States. So we now 
have 2700 drug courts in the United States that are diverting 
people away from incarceration and giving them treatment along 
with accountability of those issues. You know, we have been 
also, again, focusing on things like diminishing the barriers 
for people to get jobs. We have also been focusing on smart 
probation efforts. So we have been trying to implement a wide 
variety of innovative criminal justice programs that really 
look at moving people away from the criminal justice system.
    I think the other piece, too, is looking at these public 
health strategies of prevention and early intervention. The 
goal of those is not only intervene early, but really minimize 
the chances that people are going to intersect with the 
criminal justice system. You know, often we have not dealt with 
these issues early, so we want to make sure that we are 
preventing those issues from happening. So that has been part 
of our policy position in terms of how do we come up with 
alternatives to incarceration particularly for folks with 
substance use disorders.
    Mr. Davis. Would you see legalization perhaps as an asset 
in terms of the reduction of need for drug courts?
    Mr. Botticelli. Again, I don't see that, we don't see that 
as an effect when we look at legalization. Again, I think there 
are concerns around legalization, is that we will see an 
increase in problematic use and we might need more drug courts 
if we move down the legalization pathway to do that. So I don't 
think that it diminishes the need for those kinds of services, 
and it might have actually an opposite effect in terms of 
greater impact and greater need, both within our treatment 
system and within some of our criminal justice programs like 
drug courts.
    Mr. Davis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me yield now to Mr. Blumenauer.
    Mr. Blumenauer. Thank you again, Mr. Chairman. I really 
appreciate this and I have found the conversation here to be 
very useful, and I think you are highlighting the wide range of 
issues that are on people's minds. I hope there is an 
opportunity to continue it.
    Mr. Botticelli, how many marijuana overdose deaths were 
there in the most recent year you have available?
    Mr. Botticelli. To my knowledge, I don't know if there have 
been instances of specific overdose-related deaths.
    Mr. Blumenauer. But you talked about marijuana deaths, so I 
want to be clear. I am not trying to trap you.
    Mr. Botticelli. No, no.
    Mr. Blumenauer. How many marijuana deaths have there been 
in the last five years?
    Mr. Botticelli. So if you are referring to overdoses, I am 
not sure of those numbers. If you are referring to fatality----
    Mr. Blumenauer. Okay, then stop. Then I would like to have 
you supply us with how many overdose deaths there were, because 
I have heard from experts whose judgment I respect that they 
don't know of any. So that would be really important for you to 
provide at least to me, if not to the committee.
    What is more dangerous and addictive, methamphetamines and 
cocaine or marijuana?
    Mr. Botticelli. So I don't think anyone would dispute the 
fact that there is relative toxicity related to those drugs.
    Mr. Blumenauer. What I asked----
    Mr. Botticelli. But I am afraid----
    Mr. Blumenauer.--what is more dangerous and what is more 
addictive, cocaine and meth or marijuana. Pretty simple.
    Mr. Botticelli. I think that conversation minimizes the 
harm----
    Mr. Blumenauer. No, I am not trying to minimize the harm. I 
want to know which is more dangerous and addictive.
    Mr. Botticelli. You know, again, I go back----
    Mr. Blumenauer. You don't know?
    Mr. Botticelli.--as a public health person, you know, one 
of the things that we look at is not what is the relative risk 
of one drug against another.
    Mr. Blumenauer. Okay. Let me just say that I think that 
your equivocation right there, being unable to answer something 
clearly and definitively, when there is unquestioned evidence 
to the contrary, is why young people don't believe the 
propaganda, why they think it is benign. If a professional like 
you cannot answer clearly that meth is more dangerous than 
marijuana, which every kid on the street knows, which every 
parent knows, if you can't answer that, maybe that is why we 
are failing to educate people about the dangers. I don't want 
kids smoking marijuana; I agree with the chairman. But if the 
deputy director of the Office of Drug Policy can't answer that 
question, how do you expect high school kids to take you 
seriously?
    Mr. Botticelli. So, representative, I didn't mean to be 
disrespectful and I didn't mean to indicate that there is not 
different degrees of toxicity associated with different drugs.
    Mr. Blumenauer. I asked what was more dangerous. You 
couldn't answer it.
    Mr. Botticelli. No.
    Mr. Blumenauer. I just want to say that you, sir, represent 
is what is part of the problem.
    Let me go a little further. Let's talk about----
    Mr. Botticelli. Sir, that is exactly not what I am saying.
    Mr. Blumenauer.--what kills more people, tobacco or 
marijuana.
    Mr. Botticelli. You know, there has been a fair amount of 
tobacco-associated deaths. My challenge and the reason that I 
am hesitating about answering the questions as it relates to 
relative risk is I think many times that conversation gets 
distorted that there is no risk, that there is----
    Mr. Blumenauer. I am not trying to trap you.
    Mr. Botticelli. No, no, no. But this is why, 
representative, I don't want to be disrespectful.
    Mr. Blumenauer. Let me suggest that your inability to 
answer me whether tobacco or marijuana is more dangerous, 
again, is part of the problem.
    Mr. Connolly documented very clearly that we have been able 
to drop dramatically tobacco use, and it kills more people than 
marijuana, if you don't know that. But we have been able to 
drop that without locking people up, without arresting. I think 
this Administration has seen three to four million people 
arrested for marijuana since it has been in office, and yet we 
have been able to drop tobacco use without being coercive. We 
have been using fact-based advertising and we have focused our 
efforts on things that matter rather than things that don't 
work. And I respectfully suggest that you and the Department 
take a step back if you are concerned that somehow people think 
marijuana is benign, but part of the reason is that drug 
professionals can't communicate in ways that the rest of 
America does.
    I appreciate your being here and I welcome any written 
follow-up to my questions. I am not trying to trap you, but I 
am very discouraged by your inability to answer questions.
    Mr. Botticelli. So let me tell you this morning I spent the 
bulk of my morning with a number of parents from across the 
Country who are doing everything they can do to prevent drug 
use, and particularly prescription drug use, and many of them 
whose kids have died of it in overdose; and I asked them what 
more can the Federal Government be doing in terms of preventing 
substance use and preventing the tragedies, and they told me 
they cannot understand why States are moving to medical 
marijuana and legal marijuana. They cannot understand it 
because they understand from a very acute level the message 
that legalization sends them. So this is not from a bureaucrat 
in Washington; these are from parents who struggle on a daily 
basis and have been devastated by addiction in their kids, and 
they understand in a very dramatic and real way that legalizing 
marijuana sends the absolute wrong message to our youth.
    Mr. Mica. I thank the gentleman.
    We will recognize Mr. Cohen from Tennessee.
    Mr. Cohen. Thank you, Mr. Chair.
    With all due respect, you should be listening to 
scientists. I understand the parents who are grieved because 
their child of an overdose. They didn't overdose on marijuana. 
And you are listening to them rather than the scientists? Mr. 
Botticelli, it may go back to A Few Good Men the movie, Jack 
Nicholson; you can't handle the truth. The truth is the drug 
war failed. Your direction on marijuana is a failure. Get to 
dealing and savings kids from heroin overdoses. My young 22-
year-old friend died of a heroin overdose. Yes, he smoked 
marijuana, probably the first thing he did; but that is not why 
he smoked heroin, or shot it up. Maybe he did it because he 
heard people like you saying they are all bad and they are all 
terrible, and you can't deal with the truth and tell them, 
well, maybe marijuana doesn't kill you; heroin does and meth 
does. They are different. And until you deal with the truth, 
the kids aren't going to believe you at all.
    Now, you talked about alcohol, and you may have gotten to 
this. Sclerosis of the liver, pretty serious thing. Violence 
against spouses and women. People don't smoke marijuana and 
beat up their wives and girlfriends. They get drunk, sometimes 
they beat up their wives and girlfriends. And I know you have 
your statistics. I would debate your statistics. And if you get 
into your statistics about the amount of people who had 
marijuana in their system who were arrested or had fatal 
accidents, I would submit they probably had other drugs in 
their system, like cocaine or crack, in addition to the 
marijuana, or they had alcohol and marijuana wasn't the cause. 
Because what I understand is people who smoke marijuana, mostly 
they drive slower and they look out for the cops; they don't 
drive fast and wild like people do on alcohol and cause deaths.
    Maybe the reason that so many more people are smoking 
marijuana now is because they are not listening, and maybe they 
are doing the other drugs, too. But it also shows that the drug 
war has been a failure. It has been a serious failure.
    Harry Anslinger started--you know who Harry Anslinger is, 
don't you?
    Mr. Botticelli. I do not, unfortunately.
    Mr. Cohen. Well, you should, because he is your great-
grandfather. He started this war in the 1930s and he was tuned 
out too, and he did it to get--the American public had 
problems, and sometimes I think we still have them, with 
Hispanics and Mexicans coming into this Country, and it was a 
war on Hispanics and African-Americans. And that is when they 
made marijuana illegal, was in the 1930s, and it was all 
directed at those people. And Latinos are just as much 
discriminated against as African-Americans in disparate 
arrests. It still continues to this day. It is 85 years since 
Anslinger started this. And the fact that we spend so much time 
arresting people is sinful.
    You talked about the overall effects of marijuana. Again, 
you can't name one person who has died from an overdose of 
marijuana, can you?
    Mr. Botticelli. Not to my knowledge, sir.
    Mr. Cohen. Right. And you say the cumulative effects. Do 
you know people, possibly, or heard of people who smoked 
marijuana who are corporate giants, run banks, run major 
corporations? Do you know about these people?
    Mr. Botticelli. Yes, sir, but I also know equal number of 
people, I know a substantial number of people who also have 
gone on to develop significant disorders who have smoked 
marijuana. Again, one in nine people who try marijuana develop 
a dependency, and we know that particularly those kids who use 
it earlier in their adolescence----
    Mr. Cohen. Kids shouldn't use it. Kids shouldn't use it 
ever. And at age 18 people shouldn't be arrested for it. Maybe 
it should be 21. But kids shouldn't use it. That is something 
we all agree on.
    But the fact is we need to put our priorities toward heroin 
and meth. What percentage of your budget goes towards heroin 
addiction?
    Mr. Botticelli. Sir, I don't think we necessarily slice our 
budget, our demand reduction budget based on drugs. Again, our 
prevention efforts are focused on preventing drug use----
    Mr. Cohen. Well, isn't that a mistake, when people die from 
heroin in great numbers, that the Vermont governor spends his 
entire state of the State on heroin use, and we don't 
distinguish and try to save people's lives? When you knock 
people over at the corner store, it is not to get money to buy 
a donut because you are high; it is to buy heroin because you 
are hooked. That causes people to die.
    Mr. Botticelli. Our office, in 2011, I think acknowledged 
the burgeoning prescription drug and opiate epidemic that we 
have in the United States. In 2011 we released a plan that 
looks at dealing with prescription drug abuse and opiate 
issues.
    Mr. Cohen. Let me ask you. My time is about to run out, and 
it may have. Let me ask you one thing. I corresponded, back in 
2011, with, I guess, your predecessor, Kerlikowske?
    Mr. Botticelli. Kerlikowske. He is actually the current 
director now.
    Mr. Cohen. Is he? He said back then that there was no 
particular--they haven't found any medical use. To date, 
however, the FDA and the Institute of Medicine have not found 
smoked marijuana to be a safe or effective medicine for any 
condition, nor has any medical association came out in favor of 
smoked marijuana for widespread medical use.
    I think that medical associations have, but are you not 
aware of the fact that people use smoked marijuana to get them 
through cancer treatment nausea?
    Mr. Botticelli. I do, sir, and it has never been our 
office's position to arrest people who have been using medical 
marijuana. I think it is important for us, and again it is 
unfortunate that the FDA is not here, that it is the FDA 
process that ultimately determines the scientific efficacy of a 
drug.
    Mr. Cohen. But couldn't you try to influence it? Shouldn't 
that be part of your job? I had a buddy who was a Seal. He died 
of pancreatic cancer. He smoked marijuana at the end. His 
mother said it was the only thing that makes Earl smile or eat. 
That was pretty good.
    Mr. Botticelli. So our role in this is to rely on the FDA 
scientific process to determine. That is our influencing role, 
is to rely on the science.
    You know, I would also say, and I find it unfortunate and I 
think I would ask the chairman to invite Dr. Nora Volkow, who 
is the Director of the National Institute on Drug Abuse, 
because that is where our policy and our sciences derive from. 
We are a science-based office and a policy-based office, and I 
think if you listen to Dr. Volkow, who is not involved in the 
political discussion around substance use and marijuana, she 
will lay out for you the scientific evidence that----
    Mr. Cohen. Well, let me ask you this. You are prohibited by 
law from using any funds to study marijuana legalization, for 
medicinal purposes or any other reason. You are the only office 
in the Federal Government that is restricted in that way and 
you are required to oppose any rescheduling of Schedule I 
substances like marijuana that have been approved for medical 
purposes. Aren't you troubled by these constraints and don't 
you think that your expertise should be allowed to be used and 
study science and contribute to a positive classification of 
drugs?
    Mr. Botticelli. So I am not familiar. Congress put that 
language in our reauthorization and I don't know the background 
of that.
    Mr. Cohen. Would you support legislation to allow you to 
participate and to voice your opinion and to use science as a 
basis for your determination?
    Mr. Botticelli. Well, what I would do is support that 
Federal agencies have the ability to do that, so through----
    Mr. Cohen. Yours is prohibited by law. Should that 
restriction not be lifted?
    Mr. Botticelli. Again, I think we would have to have 
subsequent conversation in terms of----
    Mr. Cohen. You mean you think you should be muzzled?
    Mr. Botticelli. I think that it is important that our 
office not involve itself in terms of given legislation or 
given activities, and I believe that that was the genesis for 
that language, that the office not involve itself in----
    Mr. Cohen. But the totality of the drug world you need to 
participate. And if you realized that medical marijuana, as 20 
States have found, can help people with cancer, with nausea, 
with maybe glaucoma--Montel Williams apparently has some 
benefits from it, lots of people do--that you should be able to 
participate and set our drug policy straight. Your job should 
be to have a sane drug policy, not to be muzzled and 
handcuffed.
    Mr. Botticelli. From, again, my standpoint, I am happy to 
engage in a fuller conversation, is that that has not 
handcuffed other offices and other Federal agencies who are 
tasked with that work.
    Mr. Cohen. In 1971 Congress created a commission that was 
headed by Governor Schaefer of Pennsylvania to study to study 
Federal marijuana policy. That commission came out in favor of 
decriminalization, but it wasn't put in place. That was 1971. 
Would you support a new commission to study Federal marijuana 
policy?
    Mr. Botticelli. So I haven't seen that legislation. I would 
be happy to have further conversation.
    Mr. Cohen. It is a concept.
    Mr. Botticelli. Again, I think I would be happy to have a 
conversation in terms of what that might look like.
    Mr. Cohen. Thank you, sir, and I yield back the balance of 
my time.
    Mr. Mica. Well, I thank the gentleman. We will have 
additional questions; some members weren't able to attend today 
and we didn't get to some responses from the witnesses that we 
would like to have for the record, so, without objection, we 
will leave the record open for a period of two weeks. We will 
also be submitting to you, Mr. Botticelli, some questions we 
will ask for a written response.
    Again, I think this is our first hearing. We may have a 
series. You have suggested additional witnesses and we are 
going to try to work with the minority, too, and witnesses that 
they request. I think this is a very serious issue and it shows 
a great conflict between Federal, State, local laws, and huge 
amounts of money that we are spending at the Federal level 
raises a host of issues about enforcement, about education and 
prevention programs, and other worthwhile efforts that we have 
to try to keep substance abuse under control.
    So, with that, again, I appreciate your coming out today, 
being part of this hearing. There being no further business 
before the Subcommittee on Government Operations, this hearing 
is adjourned. Thank you.
    Mr. Botticelli. Thank you, Mr. Chairman.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
